               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                  Fiscal Year 2013
              Information Technology
                  Internal Controls

                        Audit Report




                                              March 26, 2014

Report Number IT-AR-14-003
                                                                        March 26, 2014

                                                        Fiscal Year 2013 Information
                                                       Technology Internal Controls

                                                         Report Number IT-AR-14-003



BACKGROUND:
The Postal Accountability and               strengthen administrator access controls
Enhancement Act of 2006 requires the        for workload scheduling software.
U.S. Postal Service to comply with the
Sarbanes-Oxley Act and make an              Management also took corrective action
assertion on the effectiveness of the       to address eight additional issues
internal control structure over financial   identified during our audit. We also
reporting. We conducted this audit in       confirmed management took corrective
support of the independent public           actions to address 15 prior year issues
accounting firm’s overall audit opinions    and is currently remediating 12 other
on the Postal Service’s financial           issues reported during fiscal years 2010
statements and internal controls over       through 2012.
financial reporting.
                                            We discussed related causes and
The Information Technology                  recommended actions to improve the
system-level environment includes           control environments. The control
processes needed to administer,             weaknesses identified, alone or
secure, and monitor key financial           collectively, do not prevent reliance on
systems. Our objective was to evaluate      system-level internal controls for
and test key system-level internal          accurate and timely financial reporting.
controls over information systems.
                                            Corrective actions can reduce the risk of
WHAT THE OIG FOUND:                         a compromise that could harm the
The system-level internal controls we       confidentiality, integrity, and availability
tested were properly designed and           of information resources.
generally operating effectively. For
example, database software controls         WHAT THE OIG RECOMMENDED:
functioned properly when we tested          We recommended management ensure
password security settings and updates.
However, we identified opportunities to     administrators follow job control policies
strengthen certain controls, which would    and implement a job scheduling
reduce the risk information technology      procedure. We also recommended
resources would be compromised.             management properly document
Specifically, these improvements would      changes to computer command lists and
help control owners better manage           require a password expiration setting for
change management policies and job          the workload automation software.
scheduling procedures for the
                                     and    Link to review the entire report
March 26, 2014

MEMORANDUM FOR:            JOHN T. EDGAR
                           VICE PRESIDENT, INFORMATION TECHNOLOGY




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Fiscal Year 2013 Information
                           Technology Internal Controls
                           (Report Number IT-AR-14-003)

This report presents the results of our audit of Fiscal Year 2013 Information Technology
Internal Controls (Project Number 13BM007IT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Sean D. Balduff, acting
director, Information Technology, or me at 703-248-2100.

Attachment

cc: Julie S. Moore
    Corporate Audit and Response Management
Fiscal Year 2013 Information Technology                                                                             IT-AR-14-003
 Internal Controls



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Three Open Fiscal Year 2013 Information Technology Issues........................................ 2

Corrective Actions Taken for Eight Fiscal Year 2013 Issues ........................................... 4

Status of Open Information Technology Issues Reported in Prior Years ........................ 5

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Open Fiscal Year 2013 Information Technology Issues ............................ 13

Appendix C: Closed Information Technology Issues Reported in Prior Years............... 14

Appendix D: Status of Open Information Technology Issues Reported in Prior Years . 17

Appendix E: Trademark Information .............................................................................. 22

Appendix F: Management’s Comments ........................................................................ 23
Fiscal Year 2013 Information Technology                                                                    IT-AR-14-003
 Internal Controls



Introduction

This report presents the results of our audit of Fiscal Year (FY) 2013 Information
Technology (IT) Internal Controls (Project Number 13BM007IT000). We conducted this
self-initiated audit in support of the independent public accounting (IPA) firm’s overall
audit opinions on the U.S. Postal Service’s financial statements and internal controls
over financial reporting. 1 Our objective was to evaluate and test key infrastructure-level
internal controls over information systems at Postal Service IT and Accounting Service
Centers (IT/ASCs) and related IT organizations. 2 During the audit, we met regularly with
the IPA firm and Postal Service representatives to report and discuss gaps in controls,
initial test results, and control deficiencies. 3 See Appendix A for additional information
about this audit and a description of the IT process areas we reviewed.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Additionally, SOX was enacted in 2002 to
strengthen public confidence in the accuracy and reliability of financial reporting.
Section 404 of SOX requires management to state its responsibility for establishing and
maintaining an adequate internal control structure. That section also directs
management to make an assertion on the effectiveness of the internal control structure
over financial reporting. The Postal Accountability and Enhancement Act of 2006
required the Postal Service to begin complying with SOX Section 404 in FY 2010. The
Board of Governors contracted with the IPA firm to express opinions on the Postal
Service’s financial statements and internal controls over financial reporting.

Conclusion

The infrastructure-level internal controls we tested were properly designed and
generally operating effectively. For example, database software controls functioned
properly when we tested the password security settings and update process. However,
we identified opportunities to strengthen certain controls that would reduce the risk that
information resources would be compromised. 4




1
  The IPA firm maintains overall responsibility for testing and reviewing all IT controls. The U.S. Postal Service Office
of Inspector General (OIG) coordinated audit work with the IPA firm to ensure adequate coverage.
2
  Infrastructure-level controls are system controls consisting of processes for managing specific system resources
related to either a general support system or a Sarbanes-Oxley Act (SOX) application.
3
  A control deficiency exists when the design or operation of a control does not allow management, in the normal
course of performing its assigned functions, to prevent or detect and correct misstatements timely.
4
  Information resources are all Postal Service information assets, including information systems, hardware, software,
data, applications, telecommunications networks, computer-controlled mail processing equipment, and related
resources and the information they contain.
                                                             1
                                                 Restricted Information
Fiscal Year 2013 Information Technology                                                                 IT-AR-14-003
 Internal Controls


Specifically, these improvements would help control owners better manage change
management policies and job scheduling procedures for the
                   application and strengthen
                                             Management also took corrective action to
address eight additional issues identified during the audit. We also confirmed
management took corrective actions to address 15 prior year issues and is currently
remediating 12 other issues reported during FYs 2010 through 2012. See Appendix C
for a summary of the corrective actions.

We reported these control deficiencies in detail to management during our audit,
discussed related causes, and recommended actions to improve the control
environments. The control weaknesses identified in prior fiscal years and in FY 2013,
alone or collectively, do not prevent reliance on internal controls for the accuracy and
timeliness of financial reporting. Corrective actions can reduce the risk of a compromise
that could harm the confidentiality, integrity, and availability of information resources;
and preserve customer confidence in the Postal Service brand.

Three Open Fiscal Year 2013 Information Technology Issues

While testing assigned infrastructure-level controls in FY 2013, the OIG reported three
new control deficiencies and process improvements to management and recommended
corrective actions. The IT Compliance Management Office (CMO) tracks each of the
issues on the Gap Evaluation Tracker (GET) for deficiencies. 8




  An administrator account provides full access to a computer's files and folders. Administrator access is mandatory
for completing many tasks, such as some software installation or certain system maintenance and management.
7
  An automated scheduling and processing program supporting distributed platforms. The enterprise manager
provides a one-stop monitoring view for all jobs.
8
  Management uses the GET to track business and IT SOX-related issues. Each issue is assigned a unique number
containing the current fiscal year. In addition, the IT SOX CMO maintains records of less significant issues (known as
process improvements) the GET does not report.


                                                          2
Fiscal Year 2013 Information Technology                                                               IT-AR-14-003
 Internal Controls


As of December 16, 2013, management had open issues requiring corrective action in
the following areas:

     1. Administrator personnel 9 did not always follow change management policies.
        Specifically, administrators did not follow the formal version control policy 10 for
        modifications to the Visual Basic Script (VBScript) 11 used to monitor the critical
                CA Workload Automation AE 12 scheduled jobs. Instead, administrators
        achieved versioning by saving the name of the script prior to making major
        changes. 13

     2. A job scheduling procedure that documents critical jobs does not exist as
        required. 14 This occurred because previous management did not develop a
        scheduling procedure and current management was not aware of the requirement.

     3. The password expiration setting for a            administrator was set to 90, rather
        than 30, days. 15 Management changed the expiration setting back to 30 days after
        we raised the issue. However, future occurrences may not be detected because the
        IT master control states Postal Service internal reviewers obtain evidence 16 of
        password settings from            administrators. These administrators could alter
        the password settings before or after providing evidence to the reviewers. Internal
        reviewers could use the           tool to directly review current password settings
        instead of requesting the evidence from the administrators.

By continuing to improve controls in these areas, management can reduce the risk of a
security compromise and increase the likelihood of timely detection to protect the
confidentiality, integrity, and availability of information resources and data. See
Appendix B for additional details related to each of the issues identified in FY 2013.




9
  Employees and contractors who work at the                                                             (ITSC).
10
   Postal Service Handbook AS-805, Information Security, Section                                        , May 2013.
11
   VBScript enables administrators to manage desktop settings and applications.
12
   CA Workload Automation AE is designed to deliver broad-based multiplatform facilities for dynamic service
management, event- and policy-driven workload scheduling, resource allocation, automation, and business process
optimization. This tool also provides real-time or "on-demand" responses to events, in accordance with business
priorities or other policy-based service requirements.
13
   The                                      team saves script names prior to making major changes in the following
format: ChkOne_YYYYMMDD.vbs.
14
   The            Job Monitoring procedure requires that the “      CA-Autosys – Job Scheduling Procedure” exist for
listing critical batch jobs and corresponding           processes and be stored on site by the
                   team.
   Handbook AS-805, Section                                    .
16
   The first test step in the control “       _PW_Parm_Config” recommends the reviewer obtain a screenshot of the
“System Parameters” from the               system administrator.


                                                         3
Fiscal Year 2013 Information Technology                                                                       IT-AR-14-003
 Internal Controls


Corrective Actions Taken for Eight Fiscal Year 2013 Issues

Management took corrective action 17 to address the following eight issues we identified
during our FY 2013 audit:

1. Migrate the existing Systems Applications and Products 18
                             application 19 from the Advanced Interactive eXecutive
   (AIX) operating system to the            operating system.
                                                                                                 22
2. Modify security privileges for an                                                                  developers
   group to prevent its access to the production environment.

3. Restrict access to mainframe security datasets from “write” to “read only” for nine
                              users.

4. Modify a mainframe operating system parameter library 23 to include appropriate
   corresponding comment lines and change request numbers.

5. Ensure records of monthly mainframe software reviews are placed in an artifact
   email account. 24

6. Upload quarterly badge access review documentation to the artifact library. 25

7. Monitor the email artifact account to verify that all managers have replied to badge
   access review requests.
                                                                                                         26
8. Correct the list of                                                                                        users who
   have administrative access to perimeter firewall appliances.

17
   Management initiated and completed these corrective actions during our audit; therefore, they did not require the IT
CMO’s participation in the corrective action process.
18
   The original name for the acronym, SAP, was: “Systeme, Anwendungen, Produkte,” meaning Systems Applications
and Products (in German).
19
   An enterprise-wide application used to process and manage general personnel records (for example, Postal
Service Form 1727, Award Recommendation/Authorization [Quality Step Increase]).
20
   The original            platform consisted of the International Business Machine (IBM) Mainframe version z10
z/OS/DB2 system and xLinux/AIX applications. DB2 is IBM’s relational database management system and a formal
subsystem of the z/OS mainframe operating system.
21
   The




   The parameter files are part of z/OS, the operating system for Postal Service mainframes, produced by IBM.
24
   As part of the SOX software review (patching) procedures, centralized email accounts (folders/distribution lists)
were established in Outlook to archive vendor notifications regarding various software updates. Specifically, on a
semiannual basis, the                                      – under the                                    manager should
review an email account called, “       SOX Artifact           ” This email account serves as an archive for an evaluation
by support team members, to determine whether               team members should implement the recommended software
updates before the next standard maintenance cycle.
25
   Also known as the                         , the artifact library serves as the repository for SOX and non-SOX related
IT procedures and it contains all artifacts that are not posted in the technology solutions life cycle library.


                                                             4
Fiscal Year 2013 Information Technology                                                                    IT-AR-14-003
 Internal Controls



Status of Open Information Technology Issues Reported in Prior Years

During our control tests in FY 2013, we reviewed the status of any prior year open
issues for which management took or completed corrective action. We found the
corrective actions addressed several of these issues and concurred with management’s
requests to close them. The OIG confirmed that the CMO took corrective action to close
15 issues identified in earlier reports (see Appendix C for specific actions taken).
Likewise, the CMO began remediation efforts on 12 open issues (see Appendix D for
details regarding the remediation efforts on these issues). Table 1 summarizes the
status of corrective actions taken this year on prior years’ issues.

                 Table 1: Summary of Corrective Actions Taken in FY 2013

                                                        Total Number of Issues
                                                                                              Total Number
                                                       Identified by Fiscal Year
                                                                                               of Issues by
                      Status                        FY 2010       FY 2011      FY 2012          Category
     Remediation in Progress                               1           6             5                12
     Issue Closed With Confirmation                        1           2            12                15
     From the OIG
     Total                                                 2           8            17                27

Recommendations

We recommend the vice president, Information Technology, direct the Information
Technology Compliance Management Office, in coordination with the manager,
                                  , to:

1. Reiterate to                                     administrators to follow control
   policies in managing critical jobs and script versions.

2. Implement a job scheduling procedure for the                                                                  that
   documents critical jobs.

We recommend the vice president, Information Technology:

3. Direct the Information Technology Compliance Management Office to require Postal
   Service internal reviewers to use the                           tool to directly
   obtain evidence of password settings.



26
   Commonly used to provide centralized authentication, authorization, and accounting for dial-up, virtual private
network, and, more recently, wireless network access.
27
   The Postal Service maintains perimeter firewalls as a technical, preventive control that limits access and services
between networks by accepting or blocking network traffic according to security policy.


                                                           5
Fiscal Year 2013 Information Technology                                      IT-AR-14-003
 Internal Controls


Management’s Comments

Management agreed with each of our findings and recommendations and will develop
detailed corrective actions in coordination with the particular control owners and in
consideration of the OIG’s recommendations. Based on a subsequent discussion, the IT
CMO plans to review specific corrective actions with the OIG for concurrence and will
track the actions to completion. Management plans to complete corrective actions for all
three recommendations by June 30, 2014.

See Appendix F for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
the planned actions should resolve the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           6
Fiscal Year 2013 Information Technology                                                                   IT-AR-14-003
 Internal Controls


                                  Appendix A: Additional Information

Background

The Postal Service’s SOX and Process Improvement Office established the IT SOX
CMO to manage annual documentation, testing, remediation, reporting, and certification
requirements for meeting and maintaining IT SOX compliance. The IT SOX CMO is
responsible for developing and implementing internal IT SOX master controls, 28
including both general computer and application-specific controls. The
                                 IT/ASCs provide computer processing and accounting
services for the Postal Service. The                  ITSC provides infrastructure services
for nearly 32,000 Postal Service locations. Each site includes multiple service
organizations that deploy and support systems and applications; provide accounting
and finance activities; and perform application development, enhancement, and system
maintenance that enable the Postal Service to achieve its business objectives. These
organizations currently support      financial 29 applications and   IT-related applications
or infrastructure components relevant to SOX Section 404 compliance. 30

The IT infrastructure environment consists of six process areas:

    Operating System.
    Database.
    Infrastructure.
    Operations.
    Application-Unique.
    Company-wide.

For FY 2013 reporting, we were responsible for testing                         IT infrastructure components
within the six process areas shown in Table 2.




28
   A uniquely named control designed to mitigate risks associated with the infrastructure (for example, database,
operating system, and so forth) supporting in-scope financial applications. Master controls are either general in nature
(such as addressing                         security parameters) or application-unique (tailored specifically for the
accounting reporting application).
29
   The IT SOX CMO considers these significant business applications supporting an in-scope business process.
30
   The IT SOX CMO determined these IT systems have a comprehensive impact on the IT control environment or are
relied on by in-scope applications for coverage of controls.


                                                           7
Fiscal Year 2013 Information Technology                                                                         IT-AR-14-003
 Internal Controls



                                 Table 2: IT Infrastructure Process Area

IT Process Area              Description
                             This area is composed of the three types of operating systems
                             that support financial and IT-related applications. They include
Operating System             z/OS — which functions in a mainframe environment —             ,
                             and            . The                includes multiple subtypes,
                             including Solaris,          and AIX.
                             This area encompasses the numerous database structures
                             that support either financial or infrastructure applications. They
Database                     include DB2, 32
                             Server,        , and           . Additionally, the OIG included
                             the                         monitoring tool in this area.
                             This area is composed of the individual security software
                             applications that provide centralized user authentication and
                             access to operating systems and standardized job scheduling
Infrastructure               tools. These include
                                     , 35                                  and            . In
                             addition, the area includes the     application used to transmit
                             data between the Postal Service and its trading partners.
                             This area encompasses several functions with broad impact in
                             supporting Postal Service IT functionality. They include backup
Operations
                             and data restore processes, physical security at IT/ASCs and
                             the ITSC,                                and job scheduling.
                             This area consists of controls designed for individual systems.
Application                                                                           37
                             These applications include
Unique
                                       , and         .
                             This area contains several security monitoring functions, such
Company-wide                 as those provided by the
                                     This includes the

31
   The developing company for a version of the open source UNIX operating system.
32
   DB2 (originally known as Database 2) is IBM’s relational database management system and a formal subsystem of
the z/OS mainframe operating system.
33
   Formally known as                                                         this software product provides continuous
database monitoring to detect or prevent unauthorized or suspicious activity. Management uses                      to monitor
activity from multiple types of databases that support SOX in-scope systems.
34
                                  implemented for                     networks, which functions as a                        for
authentication and authorization of users and computers, assigning and enforcing security policies for all computers
and installing or updating software.
35
   IBM implemented            as the mainframe software security product.             provides this security by identifying
and verifying users, authorizing users to access protected resources and recording and reporting access attempts.
36
   The software used to monitor and maintain access to the             environment.
37
                 consists of an integrated suite of applications designed to better manage customer relationships,
services, financial information, human capital, and projects in a global business environment. Centralized installation
of          software at the application level eliminates the need to install and maintain application software on each
desktop client computer.


                                                              8
 Fiscal Year 2013 Information Technology                                                                IT-AR-14-003
  Internal Controls


 IT Process Area            Description
                                   efforts to monitor and assess security systems and
                            network resources 38 and provide comprehensive responses to
                            computer security incidents; the
                                            approving the connection of systems or
                            networks to the network infrastructure; and the
                            telecommunications team’s support of wide- and local-area
                            networks, wireless technologies, telephones, virtual private
                            networks, and the Postal Service’s intranet.
Source: Postal Service IT SOX Master Control Index Report.

 Objective, Scope, and Methodology

 Our objective was to evaluate and test infrastructure-level internal controls over
 information systems at Postal Service IT/ASCs and related IT organizations. In
 agreement with the IPA firm and Postal Service management, we limited the scope of
 our review in FY 2013 to key controls. 39 After our initial reviews and before final testing
 was completed, management adjusted the status of several controls. Management
 removed controls associated with the Integrated Database Management System from
 the audit scope when the potential financial impact of the supported applications was
 reduced to an insignificant level for SOX compliance. We concurred with these changes
 to infrastructure-level controls and adjusted our work accordingly.

 To meet our objective, we interviewed administrators, observed master control
 processes and procedures, and reviewed applicable Postal Service policies. We
 judgmentally and randomly selected samples of SOX in-scope applications, servers,
 and SOX-related notifications for detailed control testing and analysis. We reviewed
                        40
 97 of                     IT master controls designed to mitigate risks associated with
    IT infrastructure components. We tested master controls, including those associated
 with configuration baselines, separation of duties, password parameter configurations,
 security log monitor configurations, security monitoring, data restoration, and testing
 documentation. We also monitored corrective action taken on issues open from prior
 year reviews and performed assessments as appropriate.

 Table 3 shows the number of master controls for each infrastructure component to
 support in-scope financial and infrastructure applications.




 38
    Information Systems Security (ISS) specialists perform much of this work.
 39
    The primary controls that management has identified to fully mitigate SOX risks.
 40
    By agreement with the IPA firm, the OIG was responsible for 97 of      key IT master controls for FY 2013
 reporting.


                                                           9
Fiscal Year 2013 Information Technology                                          IT-AR-14-003
 Internal Controls


              Table 3: Infrastructure Components Tested by IT Process Area

IT Process Area                      Infrastructure Components              Subtotal by
                                    (Number of Master Controls)             Area
Operating
System
Database


Infrastructure

Operations


Application
Unique
Company-wide


Total                                                                            97
Source: OIG analysis.

We performed all system queries in a controlled environment with management’s full
knowledge and approval. We conducted our audit at the
                                   .

During the audit, we regularly met with the IPA firm and Postal Service representatives
to discuss gaps in controls, initial test results, and control deficiencies. The OIG and IPA
firm provided management with specific recommendations for corrective action on each
reported issue on weekly IT issues logs. The IPA firm identified other deficiencies
affecting the Postal Service’s IT environment that were not in the scope of our audit.
Following an internal review, management recorded IT issues on the GET to track
progress toward completion of corrective actions.

We conducted this performance audit from October 2012 through March 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on February 11, 2014, and included its comments
where appropriate.

We assessed the reliability of computer-generated data by reviewing configuration files
obtained from the audited systems and interviewing appropriate managers who were
knowledgeable about the data. We also reviewed existing information about the data



                                                10
Fiscal Year 2013 Information Technology                                        IT-AR-14-003
 Internal Controls


and the operating systems/platforms that produced them. We determined the data were
sufficiently reliable for the purposes of this report.

Prior Audit Coverage


                                                        Final          Monetary
                                                       Report           Impact
          Report Title             Report Number         Date
Fiscal Year 2012 Information         IT-AR-13-003     1/28/2013           None
Technology Internal Controls
Report Results:
Many of the infrastructure-level internal controls we tested were properly designed
and generally operating effectively. However, we identified opportunities to
strengthen certain internal controls over security monitoring of
operating system and database activity, as well as secondary reviews of actions
taken in response to database monitoring. In addition to the issues identified in
FY 2012, we reported on management’s corrective actions taken on open issues
identified during FY 2012 and reported in FYs 2010 and 2011. Management agreed
with the recommendations, resolved 12 issues associated with five of the
recommendations, and was working to complete corrective actions on five issues
associated with four of the recommendations.

Fiscal Year 2011 Information          IT-AR-12-003      1/9/2012           None
Technology Internal Controls
Report Results:
The infrastructure-level internal controls we tested were properly designed and
generally operating effectively. However, we identified opportunities for
management to strengthen certain internal controls over operating systems,
databases,         job scheduling, and data back-up and restoration operations. In
addition to the issues identified in FY 2011, we reported on the status of unresolved
issues from the FY 2010 review. Management agreed with the recommendations.
Management resolved one issue and was working to complete corrective action on
the issues consolidated in the remaining recommendation.




                                           11
Fiscal Year 2013 Information Technology                                        IT-AR-14-003
 Internal Controls




                                                        Final          Monetary
                                                       Report           Impact
          Report Title               Report Number       Date
Testing of Certain Fiscal Year        FT-AR-11-007    2/16/2011           None
2010 Sarbanes-Oxley
Information Technology Key
Infrastructure Controls
Report Results:
Overall, general computer controls were in place and working effectively. However,
we identified issues with investigating and resolving computer security incidents in a
timely manner; installing and operating an intrusion detection agent in the
production                                environments; reducing the use of
non-standard job scheduling software in the production environment; enhancing the
quality of information in daily job logs by documenting the cause and resolution of
job failures; and performing thorough semiannual reviews of access to mainframe
job scheduling software. This report contained no recommendations as
management agreed with our findings and planned corrective actions.




                                            12
Fiscal Year 2013 Information Technology                                               IT-AR-14-003
 Internal Controls


            Appendix B: Open Fiscal Year 2013 Information Technology Issues

                         Condition of the                                       Report and
                               Control                                         Associated
                                  per                                       Recommendation
                         OIG Assessment                    Master Control        Number
       1.              Administrators did not always           .Job_        IT-AR-14-DRAFT,
            follow formal version control policy 41 for   Mntr              Recommendation
            modifying the VBScript used to monitor                          1
            critical          CA Workload
            Automation AE scheduled jobs.
            Instead, administrators achieved
            versioning by saving the name of the
            script prior to major changes. A
            versioning system must be in place to
            ensure proper version control is
            maintained. A fully accountable check-
            in/check-out process must be
            operational.
       2.              A job scheduling procedure                .Job_      IT-AR-14-DRAFT,
            that documents critical jobs does not         Mntr              Recommendation
            exist as required. This occurred                                2
            because previous management had not
            developed a job scheduling procedure
            and current management was not
            aware of the requirement.
       3.                 The password expiration              . Review_    IT-AR-14-DRAFT,
            setting for the administrator account         Job_Schd;         Recommendation
            was set to 90, rather than 30, days.                  .PW_      3
            Management changed the expiration             Parm_Config
            setting back to 30 days after we
            brought it to management’s attention.
            However, future occurrences may not
            be detected because the IT master
            control (             PW_Parm_Config)
            states that reviewers obtain evidence of
            password settings from the
            administrators. These administrators
            could alter the password settings before
            or after providing the evidence to the
            reviewers. Internal reviewers could use
            the             tool to directly review the
            current password settings.
     Source: OIG analysis.




41
     Handbook AS-805, Section                                                                 .


                                                     13
Fiscal Year 2013 Information Technology                                                                         IT-AR-14-003
 Internal Controls


     Appendix C: Closed Information Technology Issues Reported in Prior Years

                                                                                        Master Control
                                                                                      (GET Identification
                              Description of Issue                                        Number)
                                       Issue identified in FY 2010
     1.     Management implemented a reconciliation                                     _Compliance_Chk
            process between the                                                 (2010-774)
                                and the
                              report on a quarterly basis
            for all       servers.
                                          Issues identified in FY 2011
     2.     The                                  remediated                          .Review_Job_Schd
            the job scheduling review process and updated                       (2011-341/342)
            the                      . The files provided now
            show the individual permissions and role
            assignments in the Privileges and Active tabs.
     3.     Management performed a coordinated team                                  .PW_Parm_Config
            effort to reconcile          accounts against                       (2011-433)
            accounts registered in eAccess. Subsequent IT
            CMO testing verified that all accounts met Postal
            Service password policy.
                                          Issues identified in FY 2012
     4.     Management implemented a process                                        .Review_Sec_Log
            improvement to periodically review access to the                    (None – process
                    .                                                           improvement)
     5.     Management established           account                               .Sec_Log_Mntr_Config
            registration within eAccess so that all accounts                    (2012-121)
            will go through a formal request, review, and
            approval process.
     6.     Management added seven key security events to                          Sec_Log_Mntr_Config
            log for                                                             (2012-086)
     7.     Management registered the 13 service accounts                          IT_SOD
            in eAccess and removed the terminated account                       (2012-124)
            so that accounts in the       and
            domains would go through a formal request,
            review, and approval process.


42
   The                                                   is a central repository for all server assets in host computing. It is
driven by a combination of configuration discovery and data put in by the customer.
43
                                          offers protection for desktops and servers against malicious behaviors,
blended threats, and known and unknown attacks.
44
   Also known as “Linux on System z,” Linux always runs in a virtual environment on IBM System z mainframes.
Virtualization is handled either via logical partitions or by running under the z/VM hypervisor (virtual machine
operating system for creating and running virtual machines).


                                                              14
Fiscal Year 2013 Information Technology                                                 IT-AR-14-003
 Internal Controls


                                                                       Master Control
                                                                     (GET Identification
                         Description of Issue                            Number)
    8.    Management revised the           Configuration             .Config_Baseline
          Baseline document to address the current UDS           (2012-096)
          environment. The OIG reviewed the script used
          to test compliance with the configuration and
          confirmed that it includes all necessary elements.
    9.    Management set                                            .Sec_Log_Mntr_Config
                            purge parameters properly so         (2012-080)
          that “Deleted” security incident records remained
          in the system for administrator review.
    10.   Management updated the control document to                IT_SOD
          include the      and             domains               (2012-123)
          during testing.
    11.   Management removed the                                    .Sec_Log_Mntr_Config
                                                                 (2012-098)
          Additionally, management added a local
          administrator account with restricted access.
          Domain administrators had access to the
                                     that supports the
          monitoring tool. This provided administrators the
          ability to access security logging records that
          should not be edited or deleted.
    12.   Management corrected the alert process so that              .Sec_Log_Mntr_Config
          all selected      server activity (administrative-     (2012-095)
          level commands) is reported to       .
    13.   Management revised and implemented                         .Review_Sec_Log
                                                                 (2012-122)
                           procedures and recently created
          an additional compensating control (independent
          review of the control) to ensure the control is
          working as intended.
    14.   Management uploaded updated procedure and                 .CSP_Compliance_Chk
          control documents to the artifacts library that (1)    (2012-081)
          instruct the        to reconcile the        and the
                                               and report on a
          quarterly basis and (2) ensure that noncompliant
          production systems are reported as
          incidents and resolved timely. The original
          contained discrepancies and management did
          not retain a copy according to procedures written
          for this control.




                                                  15
Fiscal Year 2013 Information Technology                                             IT-AR-14-003
 Internal Controls


                                                                    Master Control
                                                                  (GET Identification
                          Description of Issue                        Number)
    15.   Management replaced the                script with      .CSP_Compliance_Chk
          new                  scanning software and           (2012-104)
          instituted a reconciliation process for the
          and the        report on a quarterly basis for all
          servers with                installed.
   Source: OIG analysis.




                                                  16
Fiscal Year 2013 Information Technology                                              IT-AR-14-003
 Internal Controls


              Appendix D: Status of Open Information Technology Issues
                               Reported in Prior Years

                                                     Master
                       Condition of                  Control                         Report and
                           Control                    (GET           Target         Associated
                          per Prior               Identification   Completion    Recommendation
                    OIG Assessment                  Number)           Date            Number
    1.    Twenty-five of 45 SOX in-scope               .Sec_Log    FY 2014,      IT-AR-13-003,
          production                    (on      _Mntr_Config      Quarter (Q)   Recommendation
          mainframe hardware) were not           (2012-094)        2             3
          reporting intrusion-detection
          events to the          and were not
          detected by current monitoring
          efforts. Initial problems enabling
          the necessary intrusion-detection
          services were attributed to a
          configuration management tool
          used for          that was not
          properly customized for           .
          However, these 25 servers were
          identified after the expected fix
          was installed.
    2.    Management did not include                   .Config_    FY 2014,      IT-AR-13-003,
          113 SOX in-scope servers in its        Baseline          Q2            Recommendation
          review of                   r          (2012-099)                      6
          configurations.
    3.    Management does not follow the               .Config_    FY 2014,      IT-AR-13-003,
          required process for documenting       Baseline          Q2            Recommendation
          baseline discrepancies and             (2012-100)                      6
          remediation plans for
                    Specifically, management
          did not get approval for the
          remediation plans or correctly
          identify corrective actions for each
          discrepancy found and track each
          discrepancy to completion.




                                                 17
Fiscal Year 2013 Information Technology                                            IT-AR-14-003
 Internal Controls



                                                      Master
                       Condition of                   Control                      Report and
                          Control                      (GET         Target        Associated
                         per Prior                 Identification Completion   Recommendation
                   OIG Assessment                    Number)         Date           Number
    4.    The current process for                       .Config_B FY 2014,     IT-AR-13-003,
          configuration baseline compliance       aseline         Q2           Recommendation
          effectively demonstrates perpetual      (2012-097)                   8
          failure of this SOX control. The
          control is defined such that SOX
          production servers should have
          “configuration baselines [that]
          meet or exceed the configuration
          baselines established by
          management.” The decision to
          equate the         configuration
          baseline with hardening standards
          is problematic because the three
          hardening standards for           are
          inconsistent and may include
          unnecessary elements or exclude
          necessary elements for a
          configuration baseline that
          supports reliable and timely
          financial reporting. In addition,
          elements of the hardening
          standards duplicate other SOX
          controls for the        environment.
    5.    Existing         patch testing               .Testing_   FY 2014,    IT-AR-13-003,
          procedures are out of alignment         Doc              Q2          Recommendation
          with current Midrange group             (2012-131)                   9
          practices. Both the procedures
          and current practices require
          adjustment to improve the patch
          history of individual servers and
          provide assurances the control
          environment is operating
          effectively.




                                                  18
Fiscal Year 2013 Information Technology                                              IT-AR-14-003
 Internal Controls



                                                       Master
                      Condition of                    Control                        Report and
                          Control                       (GET          Target        Associated
                         per Prior                 Identification   Completion   Recommendation
                    OIG Assessment                    Number)          Date           Number
    6.    In FY 2010, the OIG reported the            .CSP_Com      FY 2014,     IT-AR-12-003,
          use of unreliable inventories of        pliance_Chk       Q2           Recommendation
          servers to determine which              (2010-827)                     1
          servers should be monitored to
          confirm that intrusion-detection
          software is running and reporting
          questionable activity.
    7.    In FY 2011, the OIG also noted              .Sec_Log      FY 2014,     IT-AR-12-003,
          concerns with the method used to        _Mntr_Config      Q2           Recommendation
          determine the universe of               (2011-316)                     1
          databases to be monitored.
          Throughout FY 2012,
          management implemented a
          remediation effort that clarified the
          need for an automated discovery
          tool to identify a complete list of
          servers in their environment, as
          well as automated processes to
          sustain the configuration data
          within         .
    8.    Management did not create tickets           .Job_Mntr     FY 2014,     IT-AR-12-003,
          to monitor and track unresolved         (2011-370)        Q2           Recommendation
          issues in the        area in a timely                                  1
          manner. Our initial testing and
          follow-up testing on three
          occasions in FYs 2011 and 2012
          disclosed cases where the tickets
          were not created in the required
          time. Management plans to revisit
          corrective actions taken and work
          with the control owner to identify
          additional procedures to mitigate
          the risk of not creating tickets in
          the prescribed timeframe.




                                                  19
Fiscal Year 2013 Information Technology                                             IT-AR-14-003
 Internal Controls



                                                     Master
                      Condition of                   Control                        Report and
                         Control                      (GET           Target        Associated
                        per Prior                 Identification   Completion   Recommendation
                    OIG Assessment                  Number)           Date           Number
    9.    Management draws its sample of               .Job_Sc     FY 2014,     IT-AR-12-003,
          job changes from within the            hd_Chgs_via_      Q2           Recommendation
          change management system to            CR                             1
          determine whether all changes          (2011-398)
          have gone through the required
          process. By employing this source
          for sampling, management does
          not have the opportunity to identify
          changes made to production jobs
          that may have circumvented the
          change management system.
          Management is evaluating the
          current capabilities of the standard
          job scheduling tools to generate a
          population of changes and a
          proposed approach because
          system limitations prevent an
          extract from the job scheduler
          itself.
    10.   Critical patches were not installed          .Patch_     FY 2014,     IT-AR-12-003,
          for at least 6 months on               Mgmt              Q2           Recommendation
                       supporting seven          (2011-413)                     1
          in-scope applications.
          Management has drafted an
                   patch policy that
          incorporates the use of an
          enterprise project tracking system
          to monitor patches from vendor
          release to implementation in
          production. However,
          management has not determined
          how to define timeliness for the
          numerous circumstances that
          applications requiring
          patches encounter.




                                                 20
Fiscal Year 2013 Information Technology                                            IT-AR-14-003
 Internal Controls



                                                    Master
                      Condition of                  Control                        Report and
                        Control                      (GET           Target        Associated
                       per Prior                 Identification   Completion   Recommendation
                    OIG Assessment                 Number)           Date           Number
    11.   Management did not change the               .PW_Par     FY 2014,     IT-AR-12-003,
          password for local administrators'    m_Config          Q2           Recommendation
                  accounts on seven             (2011-440)                     1
          sampled                      and
          had other application and user
          accounts in the local account
          environment on 22 sampled
          servers. Despite remediation of
          previously found accounts,
          subsequent testing by
          management or the OIG disclosed
          additional accounts that were not
          properly configured. Management
          is reviewing the registration
          process in the account
          provisioning software and devising
          a plan to address the systemic
          problem.
    12.   We identified issues associated            .Patch_      FY 2014,     IT-AR-12-003,
          with the            patching          Mgmt              Q2           Recommendation
          process, including the absence of     (2011-442)                     1
          documentation provided in patch
          evaluation assessment,
          inadequate process and artifacts
          to ensure that all servers are
          patched, and absence of test
          plans and results of testing within
          the patch management process
          artifacts. Management is working
          with the associated parties to
          revise           patching
          procedures.
   Source: OIG analysis.




                                                21
Fiscal Year 2013 Information Technology                                                                   IT-AR-14-003
 Internal Controls



                                 Appendix E: Trademark Information

The following are the trademarks (™) or registered trademarks (®) of their respective
owners in the U.S. 47:



CA Software: Workload Automation AE™

IBM Corporation: IBM®, DB2®,

Hewlett-Packard Development Company, L.P.:

Microsoft Corporation:                                     Microsoft®,


Oracle Corporation: Oracle™,                                      , and Oracle®


Symantec Corporation: Symantec™                                                        ; Symantec™




The Open Group:




47
   A trademark (™) is the name or symbol used to identify goods purchased by a particular manufacturer or
distributed by a particular dealer and to distinguish them from products associated with competing manufacturers or
dealers. A trademark that has been officially registered and is, therefore, legally protected is known as a Registered
Trademark (®).


                                                          22
Fiscal Year 2013 Information Technology                        IT-AR-14-003
 Internal Controls


                           Appendix F: Management’s Comments




                                          23
Fiscal Year 2013 Information Technology        IT-AR-14-003
 Internal Controls




                                          24
